FDIC OIG Press Release: Ohio Man Sentenced for Making False Statements on Loan Application
The United States Department of Justice
Welcome to the District of Kansas
FOR IMMEDIATE RELEASE
News releases are available at www.usdoj.gov/usao/ks/press.html
Contact: Jim Cross
PHONE: 316-269-6481
FAX:      316-269-6420
June 30, 2010
FORMER FDIC EMPLOYEE FINED FOR LEAKING FINANCIAL DATA
KANSAS CITY, KAN.  Merikay Wootton, 63, Lenexa, Kan., has been sentenced to 24 months probation and fined $3,600 for disclosing confidential information while she was an employee of the Federal Deposit Insurance Corporation, U.S. Attorney Lanny Welch said today.
Wootton pleaded guilty to unlawfully disclosing confidential information from a government agency. In her plea, she admitted she was working as a loan officer for Columbian Bank and Trust of Overland Park, Kan., when the bank failed and was placed in receivership with the FDIC on Aug. 22, 2008. Wootton was then employed by the FDICs Division of Resolutions and Receiverships to assist with bank closing activities at Columbian Bank and Trust. She had access to confidential financial records of the FDIC and personal information, including borrowers income tax returns. While doing that job, she disclosed confidential information from the FDIC, as well as the identity and amount of income of a person with outstanding loans at Columbian. She also unlawfully disclosed the borrowers tax return.
Welch commended the Federal Deposit Insurance Corporation - Office of Inspector General, the U.S. Secret Service and Assistant U.S. Attorney Scott Rask for their work on the case.
##